U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 11, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Voris v. United States, No. 20-551
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 23,
2020. The government’s response is now due, after one extension, on December 28, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 27, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0551
VORIS, JACK WITT
USA

JOSHUA FISHER HAMILTON
HERNANDEZ & HAMILTON, PC
455 WEST PASEO REDONDO
TUCSON, AZ 85701
520-882-8823
JOSH@HERNANDEZ-HAMILTON.COM

